FEC OIG-- Audit of Commission Travel for Fiscal Year 1995:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of Commission Travel for Fiscal Year 1995:  Executive Summary
May 20, 1996
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report presents the results of the Federal Election
Commission (FEC), Office of Inspector General audit of non-local
travel activity for Fiscal Year (FY) 1995.  The primary
objectives of our audit were to:  (1)  ensure that adequate
internal controls over travel activities are in place and
operating effectively; (2)  evaluate the Commission's use of
travel funds for economy and effectiveness; and (3)  evaluate the
budgeting process of travel activities for proper management of
Commission funds.
The FEC expended $245,115 for non-local travel in FY 1995 for a
total of 255 trips by Commission employees and invitational
travel sponsored by the FEC.  Travel expenditures for FY 1995
accounted for approximately 3.5 % of operating costs, excluding
personnel related costs.  The purposes of Commission travel are
varied, including audits, training, conferences, depositions,
investigations, and recruiting.
Our audit work covered non-local travel for Fiscal Year (FY) 1995
(October 1, 1994 -- September 30, 1995). When it was impractical
to review all elements in a universe subject to audit, we used a
random sample of non-local travel for FY 1995.  The audit field
work was conducted between December 1995 and March 1996, in
accordance with the General Accounting Office's Government
Auditing Standards, and included such auditing procedures as was
considered necessary.
As part of our internal control review of Commission travel, we
verified that the travel documents (Travel Authorization, Travel
Advance, and Travel Voucher) were authorized, properly approved,
and calculated correctly.  In addition, we reviewed the travel
documents for compliance with the Federal Travel Regulations.
We also reviewed the internal controls of the American Express
Government charge card program.
Our audit revealed several internal control weaknesses and are
detailed in the Audit Findings and Recommendations section of
this report.  None of the weaknesses were the result of a lack of
federal reporting requirements or generally accepted accounting
principles.
The Commission's travel activity was evaluated for economy and
effectiveness based on the Federal Travel Regulations (FTR) and
OMB Bulletin 93-11, Fiscal Responsibility and Reducing
Perquisites.  Our review of Commission travel included the
following:  purpose of travel, type of accommodations,
utilization of discounted contract airfare, and the
reasonableness of the number of staff attending conferences or
training.  Overall, we found Commission travel was performed in
an economical and effective manner.
Evaluation of the budgeting process of Commission travel funds
was performed in accordance with FEC Directive 46, Commission
Budget and Planning Process, 12/14/82, and as amended, 2/4/84.
Specifically, we verified compliance with the procedures for re-
allocation of budgeted travel funds.  Directive 46 provides a
detailed description of the Commission's budget and planning
process, and the policy and procedures to be followed by the
Commission.  Directive 46, Section VI, as amended, contains the
procedures to be followed for the re-allocation of budgeted
funds.  Directive 46 requires that inter-divisional reallocations
of less than $5,000 be made by the Staff Director, and reported
to the Finance Committee, and over $5,000 approved by the
Commission.